                                                                 OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                 Reporting Entity: Department of State ‐ OIG
               Month Ending Date: 11/30/2009

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          Recovery Act TAFS        Award Type         US Indicator        Total Obligations     Total Gross          Direct or        Ordering TAFS
No.                                                                                                                           Outlays          Reimbursable
      Department of State ‐ OIG    (19‐0530 2009 \ 2010)      Contracts and          Y ‐ US               $37,608            $27,446 
                                   State ‐ OIG ‐ Recovery    Orders (including 
                                   Act                        modifications)
 1                                                                                                                                           Direct
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                   Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        FY 2009 Non‐Recovery       Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery    Total FY 2010       Total FY 2010 
No.                                       Act TAFS              Obligations       Gross Outlays          Act TAFS           Obligations        Gross Outlays
      Department of State ‐ OIG    (19-0529 2009) State -              $68,110            $68,110 (19-0529 2010) State -           $17,126            $17,126
  1                                OIG                                                            OIG
  2
  3
  4
  5
  6
  7
  8
 9
10




                                                                                                                           Copy of State OIG Monthly Report November 2009.xls
                                                                                             OIG Recovery Act Monthly Report

  Monthly Update Report Data (sheet 2 of 4) Version 4.0a
           Reporting OIG: Department of State ‐ OIG
       Month Ending Date: 11/30/2009

                                     FTE Working on Recovery
                                                                                                                                                                   Testimonies:
          Fiscal Year                   2009              2010                           Cumulative
           Newly Hired FTE 
                                         0.00                       0.00                     0.00                                                          Provided (monthly):        0
               (cumulative):

  FTE Funded by Recovery 
                                         0.00                       0.00                     0.00                                                       Provided (cumulative):        0
   Act Funds (cumulative):

         FTE Not Funded by 
        Recovery Act Funds               0.50                       0.00                     0.50
              (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations / 
                   Complaints                          Whistleblower Reprisal Allegations                               Investigations                                                                     Training / Outreach
                                                                                                                                                                     Reviews
                 Monthly Data                                       Monthly Data                                        Monthly Data                              Monthly Data                                Monthly Data

                                                                                                                                                                                                          Training Sessions 
                    Received:            0                                 Received:          0               Opened (this month):                0      Initiated (this month):      0                                               1
                                                                                                                                                                                                                  Provided:

                                                                                                            Active (as of the end of                   In Process (as of the end 
                                                                           Accepted:          0                                                   0                                   2                Individuals Trained:          20
                                                                                                                        the month):                              of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                          Hours of Training 
                                                                                                                   Pending Decision:              0            Published Work         0                                              40
                                                                                                                                                                                                                 Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                         Outreach Sessions 
                                                                                                             Closed without Action:               0            Published Work         0                                               0
                                                                                                                                                                                                               Conducted:
                                                                                                                                                                       Products:
                                                                                                                       Accepted for                          Unpublished Work 
                                                                                                                                                  0                                   0
                                                                                                                       Prosecution:                                  Products*:
                                                                                                                Prosecution Denied:               0

                                                                                                           Referred for Alternative 
                                                                                                                                                  0
                                                                                                                        Resolution:

    Cumulative Data Since 2/17/2009                     Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                          Training Sessions 
                    Received:            2                                 Received:          1              Closed without Action:               0          Published Work        2                                                  1
                                                                                                                                                                                                                  Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                         Accepted for 
                                                                           Accepted:          0                                                   0          Published Work        0                   Individuals Trained:          20
                                                                                                                         Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                          Unpublished Work                                Hours of Training 
                                                                                                                Prosecution Denied:               0                                1                                                 40
                                                                                                                                                                   Products*:                                    Provided:

                                                                                                           Referred for Alternative                                                                      Outreach Sessions 
                                                                                                                                                  0          Cumulative Total:        3                                               0
                                                                                                                        Resolution:                                                                            Conducted:

                                                                                                                   Cumulative Total:              0


*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                           Copy of State OIG Monthly Report November 2009.xls
                                       OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State ‐ OIG
  Month Ending Date: 11/30/2009

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Updated training presentations to include ARRA background and oversight
        2            Addressed ARRA requirements as part of training provided to Financial Management officers
        3
        4
        5
        6
        7
        8
        9
       10

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Initiate audit of Department tracking and oversight of ARRA funding
        2            Award contract for audit of State Department's tracking and reporting of funds provided by ARRA
        3            Develop a Statement of Work for an audit of State Department data centers
        4
        5
        6
        7
        8
        9
       10




                                                                                            Copy of State OIG Monthly Report November 2009.xls
                                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of State ‐ OIG
   Month Ending 
                 11/30/2009
           Date:

                                                                                     TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                      Training                     Length of               Training                  Presentation     Average
                                                 Target                                               Date of                Number of                    Cost of
      No.              Type of Training                        Title of Training    Location (City,                 Training              Provided                    with Other     Evaluation
                                                Audience                                              Training              Participants                  Training
                                                                                        State)                      (hours)                (length x                     OIGs          Rating
                                                                                                                                         participants)
       1         Financial Management        Federal       Financial Management    Arlington, VA      11/30/2009          2           20             40          $0 No              Good
      2                                                                                                                                               0
      3                                                                                                                                               0
      4                                                                                                                                               0
      5                                                                                                                                               0
      6                                                                                                                                               0
      7                                                                                                                                               0
      8                                                                                                                                               0
      9                                                                                                                                               0
      10                                                                                                                                              0
      11                                                                                                                                              0
      12                                                                                                                                              0
      13                                                                                                                                              0
      14                                                                                                                                              0
      15                                                                                                                                              0
                                                                                                                    TOTAL             20             40

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                           Outreach
                    Organization to which                     Description of                           Date of
      No.                                     Represented at                        Location (City,
                     Outreach Provided                          Outreach                              Outreach
                                                Outreach                                State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10
      11
      12
      13
      14
      15




                                                                                                                                                  Copy of State OIG Monthly Report November 2009.xls
